     Department of Homeland Security





         FEMA Should Recover $5.3 Million of Public 

    Assistance Grant Funds Awarded to the University of 

           Southern Mississippi – Hurricane Katrina 





DA-13-03                                     November 2012

                                OFFICE OF INSPECfOR GENERAL
                                    Department of Homeland Security
                                     Washington, DC 20528 1 www.Qjg, dhs.goy


                                                 t;ov     6 2m2

MEMORANDUM FOR ,                    Major P. (Phil) May
                                    Re' al Administrator, Region IV

                                     Fed~ , bE;2f~~;.ranag ent Agency
                             ----.
                        ',-
FROM:                                      ICr.~·
                                    Assistant Inspector Ge eral
                                    Office of Emergency Management Oversight

SUBJECT:                            FEMA Should Recover $5.3 Million of Public Assistance
                                    Grant Funds Awarded to the University of Southern
                                    Mississippi - Hurricane Katrina
                                    fEMA Disaster Number 1604-DR-MS
                                    Audit Report Number DA-13-Q3



We audited Public Assistance grant funds awarded to the University of Southern
Mississippi (University), in Hattiesburg, Mi ssissippi (FIPS Code OOO-UEMBU-OO). Our
audit objective was to determine whether the University accounted for and expended
Federal Emergency Management Agency (FEMA) grant funds according to Federal
regulations and FEMA guidelines.

As of October 31,2011, the University received a Public Assistance award of
$41.1 million from the Mississippi Emergency Management Agency (State), a FEMA
grantee, for damages resulting from Hurricane Katrina, which occurred in August 2005.
The award provided 100 percent FEMA funding for emergency protective measures and
repair of buildings, equipment, utilities, and recreational facilities damaged as a result of
the disaster. The aw ard included 118 large and 202 small projects.1

We audited four large projects with awards totaling $10.4 million. We also performed a
limited review of eight other projects totaling $1.8 million for procurement and
insurance issues. The audit covered the period August 29, 2005, to October 31,2011,
during which the University claimed $11.6 million of FEMA funds under the 12 projects
included in our audit scope (see Exhibit A, Schedule of Projects Audited). At the time of
our audit, the University had not completed work on all projects, and therefore, had not
submitted a final claim to the State for project expenditures.




1 Federal regulations In effect at the time of Hurricane Katrina set the large proj ect threshold at $55,500.
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

We conducted this performance audit between October 2011 and May 2012 pursuant
to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objective. We conducted this audit by applying the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed
University, State, and FEMA personnel; reviewed the University’s procurement policies
and procedures; reviewed applicable Federal regulations and FEMA guidelines; and
performed other procedures considered necessary under the circumstances to
accomplish our audit objective. We did not assess the adequacy of the University’s
internal controls applicable to its grant activities because it was not necessary to
accomplish our audit objective. However, we gained an understanding of the
University’s method of accounting for disaster-related costs and its policies and
procedures for administering activities provided for under the FEMA award.


                                          RESULTS OF AUDIT

FEMA should recover $5.3 million of costs claimed by the University. Although the
University accounted for FEMA projects on a project-by-project basis as required by
Federal regulations and FEMA guidelines, its claim included $358,528 of costs that were
not reduced by insurance proceeds, and $2,045,789 of project funding that is not
needed because the University received funding from another Federal agency to cover
the costs of the approved work. Further, the University did not comply with Federal
procurement requirements when awarding contracts on which it claimed $2,873,000, of
which the University did not have adequate documentation to support $979,803 of the
contract costs. Finally, the University received $2,082,279 of FEMA funding for
damaged facilities under alternate project criteria that was not reduced for temporary
relocation costs provided for the damaged facilities. 2

Finding A: Duplicate Benefits

The University’s Public Assistance grant included $2,404,317 in duplicate benefits.
Specifically, the University’s claim included $358,528 of costs that were not reduced by

2
 An alternate project is established when an applicant determines that the public welfare would not be
best served by restoring a damaged facility or its function to the predisaster design. In this event, the
applicant may use the Public Assistance grant for that facility for other purposes.


www.oig.dhs.gov                                      2                                         DA-13-03
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

insurance proceeds. In addition, the University’s Public Assistance grant included
$2,045,789 of project funding for which it also received funding from another Federal
agency to cover the costs of the same work. According to Section 312(a) of the Robertf
T.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct, as amended (Stafford Act),
FEMA funds cannot be used for expenditures recoverable from another Federal
program, insurance, or any other source. Also, according to 44 CFR 206.250(c), actual
and anticipated insurance recoveries shall be deducted from otherwise eligible costs.
Therefore, FEMA should deobligate $2,404,317 and put the funds to better use.

InsurancefProceeds. The University received insurance proceeds totaling $27,054,709 as
a result of a final negotiated settlement with its insurance carriers. The University
applied $17,803,342 of the proceeds to cover eligible damages under FEMA projects and
used the remaining $9,251,367 to cover damages not funded by FEMA. However, we
identified an additional $561,908 of FEMA project costs that should have been reduced
by the insurance proceeds. This amount included $431,893 received during the final
negotiated settlement that exceeded the University’s insurance claim to its primary
insurance carrier. The University did not credit the FEMA projects with the $431,893
because it did not believe that the excess proceeds should be used to offset eligible
project costs. The $561,908 also included $130,015 of project costs that University
officials overlooked when applying the final insurance proceeds to the FEMA projects.

In addition, the University did not receive $203,380 of anticipated proceeds that had
been deducted from estimated project costs when the project worksheets were
approved because the damages were not covered by insurance. Therefore, FEMA
should deobligate a net of $358,528 ($561,908 minus $203,380) and put the funds to
better use.

UniversityfResponse. University officials disagreed that the final negotiated insurance
settlement of $27,054,709 included proceeds that exceeded its insurance claim with its
primary insurance carrier. They said that insurance proceeds for damages to the gulf
coast campuses were no more than the primary insurance policy limits. They also said
that the University went to its excess insurance carrier and negotiated additional funds,
which were paid and applied to eligible FEMA projects.

OfficefoffInspectorfGeneralf(OIG)fResponse. We disagree that the University did not
receive insurance proceeds above its primary policy limits. We requested
documentation from the University to show which project(s) it applied the additional
insurance proceeds mentioned in its response to this finding. However, the University
did not respond to our request. Therefore, without new evidence, the finding remains
unchanged.




www.oig.dhs.gov                             3                                  DA-13-03
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

DuplicatefGrantfFunding. The University received two grants that totaled $11,822,894
from the U.S. Department of Education (Hurricane Katrina Foreign Contributions Award
and Hurricane Recovery Award) for hurricane-related recovery activities, which included
temporary campus lease costs and renovation costs for a temporary facility. Of these
grants, $2,045,789 were for the same activities approved under Project 7823
(temporary location of the Gulf Park Campus). This occurred because the State did not
notify FEMA of the duplicate grant funding. The University notified the State of the
duplicate grant funding in June 2009 and reduced expenditures claimed under the
project by $2,045,789. However, as of May 2012, the State had not notified FEMA that
the $2,045,789 of project funding was no longer needed. FEMA should deobligate the
$2,045,789 of unneeded funding and put the funds to better use.

UniversityfResponse. University officials agreed that the original request for the U.S.
Department of Education grants included funding for temporary location renovations and
a portion of lease costs for the facilities. They said that the grant funding included a
provision that allowed the University to reallocate up to 10 percent of these funds to
other projects of a nature similar to the grant’s purpose. They said that the University
used this provision to reallocate $616,157 that was provided for lease costs under the
Department of Education grants to other projects. Further, the officials said that they
supplied a grant accounting to OIG, which showed that no expenditures for lease costs
had been included in the Department of Education grant funding.

OIGfResponse. We agree that the U.S. Department of Education grants had a provision
that allowed the University to reallocate up to 10 percent of the funds to other projects
of a nature similar to the grant’s purpose. However, the University did not provide us
with sufficient evidence (reallocation and expenditure documents) to support its
assertion that this grant did not fund lease expenditures. Therefore, our finding remains
unchanged.

Finding B: Contracting Procedures

The University did not comply with Federal procurement requirements when awarding a
time-and-materials contract for which it claimed $2,419,910 and an architectural and
engineering (A/E) services contract for which it claimed $453,090. Federal procurement
regulations at 2 CFR 215 required the University, among other things, to—

•	 Perform some form of cost or price analysis for every procurement action and
   document such analysis in the procurement files. (2 CFR 215.45)

•	 Perform all procurement transactions in a manner to provide, to the maximum
   extent practical, open and free competition. (2 CFR 215.43)



www.oig.dhs.gov                             4	                                DA-13-03
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

•	 Make positive efforts to use small businesses, minority-owned firms, and women’s
   business enterprises whenever possible. (2 CFR 215.44(b))

In addition, FEMA 322, PublicfAssistancefGuide, October 1999, pp. 39–40, specifies
that—

•	 Time-and-materials contracts should be avoided, but may be used for a limited
   period (generally not more than 70 hours) for work that is necessary immediately
   after the disaster has occurred, when a clear scope of work cannot be developed.

•	 Contracts must be of reasonable cost, generally must be competed, and must
   comply with Federal, State, and local procurement standards.

•	 Noncompetitive proposals should be used only when the award of a contract is not
   feasible under small purchase procedures, sealed bids, or competitive proposals,
   and one of the following circumstances applies: (1) the item is available only from a
   single source, (2) there is an emergency requirement that will not permit a delay,
   (3) FEMA authorizes noncompetitive proposals, or (4) solicitation from a number of
   sources has been attempted and competition is determined to be inadequate.

FEMA may grant exceptions to Federal procurement requirements to subgrantees on a
case-by-case basis (2 CFR 215.4).

Time-and-MaterialsfContract. The University awarded a time-and-materials contract on
which it claimed $2,419,910 for permanent repairs (electrical, replacement of heating,
ventilation, and air-conditioning (HVAC) units, temporary roof replacement, drywall
replacement, etc.) under six projects. The contract work was completed in July 2006, 11
months after Hurricane Katrina. However, the project files did not contain adequate
justification for use of the time-and-materials contract.

Project documentation showed that a clear scope of work had been developed at the
time the contract was awarded. A memo from the project architect stated, “We
brought in reputable contractors . . . and reviewed the scope of work.” The memo also
noted drawings that outlined the proposed work. Because this contract was completed
11 months after the disaster and FEMA’s PublicfAssistancefGuide states that time-and-
materials contracts should be avoided but may be used for a limited period (generally
not more than 70 hours) for work that is necessary immediately after the disaster has
occurred when a clear scope of work cannot be developed, we question the $2,419,910
claimed for the time-and-materials work. The University should have used a more
appropriate type of contracting method to accomplish the work. The $2,419,910
includes $979,803 of costs we are questioning under finding C. Therefore, the net
amount questioned for this finding is $1,440,107.


www.oig.dhs.gov                             5	                                DA-13-03
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


A/EfServicesfContract. The University did not allow for full and open competition when
procuring A/E services for which it claimed $453,090. Instead of soliciting competitive
proposals, the University used an A/E firm with which it had a contract prior to
Hurricane Katrina. Full and open competition increases the probability of reasonable
pricing from the most qualified contractors and helps discourage and prevent
favoritism, collusion, fraud, waste, and abuse.

The University also did not perform a cost or price analysis before awarding the time-
and-materials and A/E services contracts. A cost or price analysis decreases the
likelihood of unreasonably high or low prices, contractor misinterpretations, and errors
in pricing relative to the scope of work. Finally, the University did not make an effort to
use small businesses, minority-owned firms, and women’s business enterprises
whenever possible. As a result, such businesses were not given an opportunity to
participate in federally funded work. University officials said that this occurred because
they were not aware of the Federal procurement requirements. However, FEMA/State
and State/applicant agreements require compliance with Federal procurement
requirements.

Because the University did not follow Federal procurement requirements, FEMA has no
assurance that the University paid a fair and reasonable price for the contract work.
Therefore, we question a total of $1,893,197 ($1,440,107 in time-and-materials
contracts plus $453,090 in A/E contracts), as shown in table 1.

    Table 1: Questioned Costs for Time-and-Materials and A/E Services Contracts
                                                     Amount              Amount           Total
 Project                                           Questioned          Questioned       Amount
 Number               Project Scope            (Time-and-Materials)   (A/E Services)   Questioned
  7186     Holloway Complex, Building Repair              $179,698          $12,579      $192,277
  7724     Physical Plant Building #997                     50,337           $3,529       $53,866
  8770     Gulf Park Utilities (Campuswide)                226,532           15,857       242,389
  9550     Gulf Park Library Building                      461,344          155,196       616,540
           Gulf Park Advanced Education                    362,977          254,766       617,743
   9624    Center Building
   9931    Central HVAC Plant Building                     159,219           11,163       170,382
   Total                                                $1,440,107        $453,090     $1,893,197

UniversityfResponse. University officials said that even though they now understand
that the “labor and materials” contract in question is not allowed under the Public
Assistance program, they did not understand that early in the recovery process. The
officials said the University paid eight invoices under the contract from September 2005
through about June 2006 and neither the State nor FEMA questioned the contract.
Moreover, they said that had officials informed the University of the Federal regulations


www.oig.dhs.gov                                 6                                       DA-13-03
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

when they first submitted an invoice, the University would have altered its process.
Finally, the officials said that the University has complied with applicable Federal
contracting requirements since being made aware of them.

OIGfResponse. Federal procurement regulations at 2 CFR 215 require the University to
comply with procurement requirements. The University signed a State/University
disaster assistance agreement stating that the University will comply with all applicable
provisions of Federal and State procurement regulations.

Finding C: Unsupported Costs

The University did not maintain adequate source documentation to support $979,803 of
time-and-materials contract costs claimed under Projects 9550 and 9624. For the costs
in question, the University had only summary invoice data from the prime contractor,
rather than source documentation such as labor and equipment records. According to
2 CFR 215.21(b)(7), recipients’ financial management systems shall provide accounting
records that are supported by source documentation. Without adequate source
documentation, we were unable to validate the contractor’s billings. Therefore, we
question the $979,803 ($216,010 under Project 9550 and $763,793 under Project 9624).

UniversityfResponse. University officials said that the invoices in question were paid and
reviewed by the managing architect, and that they believe all relevant documentation
was in place. They also said that they believe the documentation exists with the
contractor and that the University could have obtained and submitted the relevant
documentation to OIG upon request. Finally, the officials said that the contractor’s
invoices were reviewed, approved, and funded over a period of 10 months by the State
and no documentation issues were raised at that time.

OIGfResponse. Summary invoice data from the prime contractor are not considered
source documentation, especially when supporting claimed costs for a time-and-
materials contract. We disagree that source documentation was not requested from
the University during the audit. We initially notified the University of this issue during a
meeting on March 23, 2012, and again via email on March 26, 2012. On May 8, 2012,
we also provided the University with a draft discussion report that contained the
finding. As of the date of this report, University officials have not provided any
additional documentation to resolve the questioned costs. Therefore, this finding
remains unchanged.

Finding D: Alternate Project Funding

The University received $2,082,279 of FEMA funding for damaged facilities under
alternate project criteria that was not reduced for temporary relocation costs provided


www.oig.dhs.gov                               7                                   DA-13-03
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

for the damaged facilities. According to FEMA Policy 9523.3(f)(2), July 16, 1998, funds
approved for temporary facilities may not be applied to an alternate project. Further, if
temporary relocation costs were approved before a decision by an applicant to pursue
an alternate project, these costs will be deducted from the Federal estimate of the
alternate project funding.

In August 2005, Hurricane Katrina damaged a number of facilities on the University’s
Gulf Coast Campus in Long Beach, Mississippi. Because of those damages, in April 2006,
FEMA approved Project 7823, which authorized funds for temporary relocation space
while the damaged facilities were repaired or replaced. In August 2011, at the
University’s request, FEMA approved four alternate projects (Projects 6061, 9230, 9346,
and 9728) totaling $2,082,279 because the University decided not to repair or replace
those facilities. However, when FEMA approved the $2,082,279 of alternate project
funding for the four facilities, it did not reduce eligible costs for temporary relocation
costs that the University had received for the facilities under Project 7823.

As of October 2011, FEMA had awarded the University $6,754,871 of temporary
relocation costs under Project 7823, a portion of which applies to the four alternate
projects. FEMA could not give a reason why the funding on the alternate projects had
not been reduced for temporary relocation costs. However, FEMA officials began
discussing an action plan to address the problem after we brought the issue to their
attention.

Since the temporary relocation facility costs are based on square footage and footage
documentation was not available supporting the alternate projects, we were not able to
determine the funding that should be reduced from the alternate projects. Therefore,
we are recommending that FEMA determine, using square footage data, the temporary
relocation costs provided for the four facilities under Project 7823 and reduce the
$2,082,279 of alternate project funding accordingly.

UniversityfResponse. University officials responded to this finding by providing comments
concerning the University’s pre- and post-Hurricane Katrina facility capacities relating to
the aspects of Project 7823. The officials also discussed Disaster Specific Guidance 17,
FEMA-1604-DR-MS, as it relates to FEMA funding for improved and alternate projects.

OIGfResponse. We did not dispute the University’s need for and use of space, either
permanent or temporary, in this finding. The issue concerns FEMA funding of
temporary facilities when the University stated through an alternate project request
that it no longer needed the facilities for which the funds were provided. FEMA Policy
9523.3(f)(2) clearly states that funds approved for temporary facilities may not be
applied to an alternate project and any temporary costs will be deducted from the
eligible Federal estimate for the permanent restoration of the damaged facility.


www.oig.dhs.gov                              8                                   DA-13-03
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security




                                       RECOMMENDATIONS 


We recommend that the Regional Administrator, FEMA Region IV: 


        Recommendation #1: Deobligate and put to better use $358,528 of project
        funding provided for costs covered by insurance proceeds (finding A).3

        Recommendation #2: Deobligate and put to better use $2,045,789 of funding
        under Project 7823 that is no longer needed because the University received
        funding from the U.S. Department of Education to cover the costs of the
        approved work (finding A).

        Recommendation #3: Disallow $1,893,197 of ineligible contract costs unless
        FEMA grants the University an exception for all or part of the costs as provided
        for in 2 CFR 215.4 and Section 705(c) of the Stafford Act (finding B).

        Recommendation #4: Instruct the State to reemphasize to the University its
        requirement to comply with Federal procurement regulations and FEMA
        guidelines when acquiring goods and services under the FEMA award (finding B).

        Recommendation #5: Disallow $979,803 of unsupported costs under Projects
        9550 ($216,010) and 9624 ($763,793) (finding C).

        Recommendation #6: Determine the square footage applicable to the
        temporary space supporting the alternate projects and reduce alternate project
        funding accordingly for temporary relocation costs provided for under Project
        7823 (finding D).


                 DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with University, State, and FEMA officials during
our audit. We also provided a draft report in advance to these officials and discussed it
at the exit conference held on May 22, 2012. University officials’ comments, where
appropriate, are included in the body of the report.




3
 FEMA officials deducted $124,690 of insurance proceeds relative to this finding ($100,000 from Project
6289 and $24,690 from Project 10972) prior to the issuance of this report.


www.oig.dhs.gov                                     9                                        DA-13-03
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until your response is
received and evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report were David Kimble, Eastern Region Audit Director;
Larry Arnold, Audit Manager; John Skrmetti, Auditor-in-charge; and Mary James, Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact
David Kimble, Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                            10                                    DA-13-03
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


                                                                                                 EXHIBIT A

                                     Schedule of Projects Audited 

                                  August 29, 2005, to October 31, 2011 

                                   University of Southern Mississippi 

                                  FEMA Disaster Number 1604-DR-MS 


Project                                      Amount          Amount       Questioned   Funds Put to
Number             Project Scope             Awarded         Claimed        Costs       Better Use        Finding
          Gulf Coast Research Laboratory
 2786     Debris Removal                      $246,559        $280,384             -                  -
          Gulf Park Campus Temporary                                                                        A
 7823     Relocation                          6,754,871       5,819,406            -    $2,045,789
 9550     Gulf Park Library Building          1,332,167       2,227,322      832,550                  -    B, C
          Gulf Park Advanced Education                                                                     B, C
 9624     Center Building                     2,039,498       2,529,617    1,381,536                  -
  *       Gulf Park Procurement               1,001,151        455,424       658,914              -         B

  #       Insurance Proceeds                   780,248         284,452             -       358,528          A

 Total                                      $12,154,494     $11,596,605   $2,873,000    $2,404,317



      * Projects 7186, 7724, 8770, and 9931. Review of these projects was limited to procurement
      issues relative to the time-and-materials repair work and A/E services contracts.

      # Projects 5226, 5789, 6289, and 10972. Review of these projects was limited to insurance
      issues.




 www.oig.dhs.gov                                       11                                        DA-13-03
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


                                                                                   Exhibit B 


                                   Report Distribution List 

                              University of Southern Mississippi 

                             FEMA Disaster Number 1604-DR-MS 


Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Chief Procurement Officer
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-005)

Grantee

Executive Director, Mississippi Emergency Management Agency

State

State Auditor, Mississippi

Subgrantee

Director, Campus Management, University of Southern Mississippi Gulf Coast




www.oig.dhs.gov                           12                                 DA-13-03
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
